MEMORANDUM
                                                Office of the Inspector General
Date:    May   7,    2001                                                                              Refer To:

To:
         Manuel J. Vaz
         Regional Commissioner
                                                                                     ~
         Boston

From:
         Inspector General


Subject: Financial-Related       Audit   of Hale    Barnard       Services     -A    Fee-for-Service         Representative
         Payee      for the Social   Security    Administration        (A-O1-00-10060)



        Attached is a copy of our final report. Our objectives were to determine whether Hale
        Barnard Services: (1) had effective safeguards over the receipt and disbursement of
        Social Security benefits, and (2) ensured that Social Security benefits were used and
        accounted for in accordance with the Social Security Administration's policies and
        procedures.

         Please comment within 60 days from the date of this memorandum         on corrective
         action taken or planned on each recommendation.      If you wish to discuss the final
         report, please call me or have your staff contact Steven L. Schaeffer,   Assistant
         Inspector General for Audit, at (410) 965-9700.



                                                                         J~~                           -




        Attachment

         cc: Fritz Streckewald
                                                              r              James       G. Hut




             JoEllen Felice
             Helen Heoner
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



    FINANCIAL-RELATED AUDIT OF

    HALE BARNARD SERVICES – A

 FEE-FOR-SERVICE REPRESENTATIVE

          PAYEE FOR THE

 SOCIAL SECURITY ADMINISTRATION



    May 2001     A-01-00-10060



   AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                        Executive Summary

OBJECTIVE

Our objectives were to determine whether Hale Barnard Services (HBS): (1) had
effective safeguards over the receipt and disbursement of Social Security benefits, and
(2) ensured that Social Security benefits were used and accounted for in accordance
with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint Representative Payees (Rep Payee) to receive and manage these
beneficiaries and recipients’ benefit payments. A Rep Payee may be an individual or
an organization. SSA selects Rep Payees for Old-Age, Survivors and Disability
Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
when representative payments would serve the individual’s interests.

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include:

•   Using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

•	 Conserving and investing benefits not needed to meet the individual's current
   needs;

•   Maintaining accounting records of how the benefits are received and used;

•	 Reporting events to SSA that may affect the individual's entitlement or benefit
   payment amount;

•	 Reporting any changes in circumstances that would affect their performance as a
   Rep Payee; and

•	 Completing Representative Payee Reports (RPR) for all beneficiaries and recipients
   annually.

RESULTS OF REVIEW

Based on our review, we determined that HBS generally: (1) had effective safeguards
over the receipt and disbursement of Social Security benefits, and (2) ensured that
Social Security benefits were used and accounted for in accordance with SSA’s policies
and procedures. However, we could not determine whether HBS properly reported to
SSA how benefits were used because SSA could not locate most of the RPRs we
Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   i
requested. (See Other Matters section of this report.) Specifically, we determined that
for all 63 beneficiaries: (1) HBS accurately recorded benefits paid to them by SSA;
(2) all expenses appeared to be proper; and (3) for sampled expenses, HBS maintained
source documents that allowed us to determine that the expenses were reasonable and
authentic. We believe the one area in which HBS needs to improve procedures is to
notify SSA when SSI recipients exceed $2,000 in conserved funds—the resource limit
under the SSI program.

HBS received $397,733 in SSA funds for 63 individuals from September 1999 through
August 2000. In 55 of the 63 cases, we found no problems with HBS’ accounting
and/or use of those funds. However, in 8 of the 63 cases, we found that HBS did not
adhere to SSA’s policies. In 7 of these cases, HBS continued to receive $22,774 in SSI
payments for recipients who had exceeded the resource limit. In 1 other case, HBS
incorrectly charged a recipient $84 in payee fees.

CONCLUSIONS AND RECOMMENDATIONS

Generally, HBS met its responsibilities as Rep Payee for individuals receiving OASDI
and SSI payments. However, HBS was not fully aware of its reporting responsibilities
and thus received SSI payments for individuals who were ineligible for payments
because they exceeded SSI resource limits.

We recommend that SSA:

•	 Ensure that HBS returns funds paid for recipients who were ineligible due to excess
   resources.

•	 Reemphasize procedures with HBS for notifying SSA when events occur that affect
   the eligibility or the amount of monthly benefits for individuals in its care.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations. (See
Appendix A for SSA’s comments.)




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   ii
                                                                         Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 5


   Resource Limit Exceeded................................................................................... 6


   Payee Fee Charged in Error............................................................................... 7


   Conserved Funds Held in a Non-Interest Bearing Account ................................ 7


   Conserved Funds were Properly Transferred..................................................... 7


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9


OTHER MATTERS............................................................................................... 10


APPENDICES


APPENDIX A – Agency Comments

APPENDIX B – OIG Contacts and Staff Acknowledgments




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)
                                                                                    Acronyms

ECA                  Earnings Credit Allowance


FO                   Field Office


HBS                  Hale Barnard Services


OASDI                Old-Age, Survivors and Disability Insurance


OIG                  Office of the Inspector General


Rep Payee            Representative Payee


RPS                  Representative Payee System


RPR                  Representative Payee Report


SSA                  Social Security Administration


SSI                  Supplemental Security Income


SSR                  Supplemental Security Record





Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)
                                                                               Introduction

OBJECTIVE
Our objectives were to determine whether Hale Barnard Services (HBS): (1) had
effective safeguards over the receipt and disbursement of Social Security benefits, and
(2) ensured that Social Security benefits were used and accounted for in accordance
with the Social Security Administration’s (SSA) policies and procedures.

BACKGROUND

Some individuals cannot manage or direct the management of their finances because
of their age or mental and/or physical impairments. Congress granted SSA the
authority to appoint Representative Payees (Rep Payee) to receive and manage these
beneficiaries and recipients’ benefit payments. A Rep Payee may be an individual or
an organization. SSA selects Rep Payees for Old-Age, Survivors and Disability
Insurance (OASDI) beneficiaries or Supplemental Security Income (SSI) recipients
when representative payments would serve the individual’s interest.

Rep Payees are responsible for using benefits to serve the best interests of the
beneficiary or recipient. Their duties include:

Using benefits to meet the beneficiary or recipient’s current and foreseeable needs;

    �	 Conserving and investing benefits not needed to meet the individual's current
       needs;

    �   Maintaining accounting records of how the benefits are received and used;

    �	 Reporting events to SSA that may affect the individual's entitlement or benefit
       payment amount;

    �	 Reporting any changes in circumstances that would affect their performance as a
       Rep Payee; and

    �	 Completing Representative Payee Reports (RPR) for all beneficiaries and
       recipients annually.
                                                                       1
Under the SSI program, a recipient is limited to $2,000 in resources to remain eligible
for benefits. If this resource limit is exceeded, benefit payments to that recipient are
suspended. Such benefits will resume if the recipient’s resources later fall below the
limit. Since the Rep Payee is responsible for notifying SSA of any event that affects the


1
  SSA’s Program Operations Manual System, section SI 01130.600.B.1, indicates that the unspent portion
of retroactive benefits is excluded from resources for the 6 calendar months following the month in which
the individual receives the benefits.

Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   1
right of the recipient to receive benefits, the Rep Payee must notify SSA if a recipient’s
resources exceed the limit in any given month.

SSA funds not needed for current maintenance may be deposited in an interest-bearing
or dividend-bearing account in a bank, trust company, credit union, or Savings and
Loan Association which is insured under either Federal or State law. Any interest
earned on this account belongs to the individual and not to the Rep Payee. SSA
specifically recommends that Rep Payees hold conserved funds of $150 or more in an
interest-yielding account, or other investment, with minimum risk.

The Social Security Act permits some organizational Rep Payees to collect a fee for the
services they perform.2 These organizations are called “fee-for-service”3 Rep Payees.
The fee is compensation for providing Rep Payee services. Effective December 1998,
the fee was the lessor of 10 percent of the monthly benefits or $27, and, beginning
December 1999, the fee was the lessor of 10 percent of the monthly benefits or $28.

About 6.5 million individuals have Rep Payees—approximately 4.2 million are OASDI
beneficiaries, 1.7 million are SSI recipients, and 500,000 are entitled to both OASDI
and SSI.4 The chart below reflects the types of Rep Payees and the number of
individuals they serve.

                                                                Number                   Number of
                  Type of Rep Payee                                of                    Individuals
                                                               Rep Payees                  Served
Individual Payees: Parents, Spouses, Adult
Children, Relatives, and Others                                  4,155,000                5,750,000
Organizational Payees: State Institutions,
Local Governments and Others                                         44,150                 690,000
Organizational Payees: Fee-for-Service
                                                                           850                60,000

                           Total                                 4,200,000                6,500,000

HBS is a non-profit, non-sectarian organization headed by a volunteer Board of
Directors. HBS runs a licensed residential care house, provides programs and services
to elders of diverse cultures who live independently in the community, and runs a
disability program for individuals of all ages. In May 1995, HBS created its disability



2
    See sections 205(j)(4) and 1631(a)(2)(D) of the Social Security Act.
3
 To collect a fee, an organization must be a nongovernmental agency that is community-based, a non-
profit social service agency, bonded or licensed, and serving at least five beneficiaries or recipients. The
organization cannot generally be a creditor of the beneficiary or recipient. See SSA’s Program Operations
Manual System, section GN 00506.100.
4
    Numbers do not add due to rounding.

Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)    2
program in association with SSA’s rules governing agencies functioning as Rep
Payees. Through its disability program, HBS serves individuals of all ages,
backgrounds and disabilities who are eligible for benefits from SSA.

SCOPE AND METHODOLOGY

Our audit covered the period of September 1, 1999 through August 31, 2000. To
accomplish our objectives, we:

•	 Reviewed the Social Security Act, SSA regulations, rules, policies and procedures
   pertaining to Rep Payees.

•	 Contacted SSA Regional Office and Field Office (FO) staff to obtain background
   information about HBS’ performance as a Rep Payee.

•   Reviewed prior audits of HBS by its public accounting firm.

•	 Obtained from SSA’s Representative Payee System (RPS) a listing of individuals
   who were in HBS’ care and received SSA funds as of September 25, 2000 or who
   left HBS’ care after August 31, 1999.

•	 Obtained from HBS a listing of individuals who were in its care and received SSA
   funds as of September 25, 2000 or who left its care after August 31, 1999.

•	 Compared and reconciled the RPS listing to HBS’ listings to identify the population
   of SSA individuals who were in HBS’ care from September 1999 through
   August 2000.

•	 Reviewed and tested HBS’ internal controls over the receipt and disbursement of
   OASDI and SSI payments.

•   For each beneficiary and recipient, we performed the following tests.

    -   Compared and reconciled benefit amounts paid according to HBS’ records to
        benefit amounts paid according to SSA’s payment records.

    -   Reviewed HBS’ accounting records to determine whether benefits were properly
        spent or conserved on the individual’s behalf. We also determined whether SSA
        was due a refund of benefits that were not properly used.

    -   Traced a sample of expenses to source documents and examined the
        underlying documentation for reasonableness and authenticity.

•	 Interviewed a sample of HBS beneficiaries to determine whether their basic needs
   were being met.
• Performed third-party confirmations of the Rep Payee’s bank account balances.



Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   3
•   Reviewed a sample of RPRs.

We performed our audit of HBS in Boston, Massachusetts between October 2000 and
February 2001. We conducted our audit in accordance with generally accepted
government auditing standards.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   4
                                                              Results of Review

Based on our review, we determined that HBS generally: (1) had effective safeguards
over the receipt and disbursement of Social Security benefits, and (2) ensured that
Social Security benefits were used and accounted for in accordance with SSA’s policies
and procedures. However, we could not determine whether HBS properly reported to
SSA how benefits were used because SSA could not locate most of the RPRs we
requested. (See Other Matters section of this report.) Specifically, we determined that
for all 63 beneficiaries: (1) HBS accurately recorded benefits paid to them by SSA;
(2) all expenses appeared to be proper; and (3) for sampled expenses, HBS maintained
source documents that allowed us to determine that the expenses were reasonable and
authentic. We believe the one area in which HBS needs to improve procedures is to
notify SSA when SSI recipients exceed $2,000 in conserved funds—the resource limit
under the SSI program.

As shown in the table below, $397,733 were paid to HBS for 63 beneficiaries and
recipients from September 1999 through August 2000. In 55 of the 63 cases, we found
no problems with HBS’ accounting and/or use of SSA funds. However, in 8 of the
63 cases, we found that HBS did not adhere to SSA’s policies. In 7 of these cases,
HBS continued to receive $22,774 in SSI payments for recipients who had exceeded
the resource limit. In 1 other case, HBS incorrectly charged a recipient $84 in payee
fees.

                                                         Benefits Received
                            Number                                                             Total SSA
                            of Cases                   SSI                  OASDI               Funds
  SSI Only                     33                    $180,605                        --         $180,605
  OASDI Only                    16                             --         $122,658                 122,658
  Concurrent                    14                      39,714                54,756                94,470
       Total                    63                   $220,319             $177,414               $397,733


                                        Reason for Overpayment
                                       Resource Fee Exceeded                                   Benefit
                      Cases    Cases     Limit      Maximum                                 Payments Due
                     Reviewed Overpaid Exceeded     Allowable                                   SSA
  SSI Only              33       6         6            0                                       $22,064
  OASDI Only              16               1             N/A                  1                           84
  Concurrent              14               1              1                   0                          710
       Total              63               8              7                   1                    $22,858




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)     5
RESOURCE LIMIT EXCEEDED

In 7 of the 63 cases reviewed, HBS continued to receive SSI payments for recipients
who had exceeded the $2,000 resource limit. In 3 of the 7 cases, individuals received
retroactive payments from SSA. When SSA makes a retroactive payment to a
recipient, the recipient has a 6-month period during which the retroactive funds are
excluded from assessing whether the recipient has excess resources. In each of these
3 cases, the recipients’ resources continued to exceed the $2,000 resource limit after
the 6-month exclusion period ended. In 4 of the 7 cases, conserved funds accumulated
over time and eventually exceeded the $2,000 resource limit. Due to having excess
resources, these 7 recipients were overpaid $22,774 in SSI benefits. We discussed
these 7 cases with SSA’s FO staff and they are taking corrective action to recover the
overpayments.

In one of the 7 cases discussed above, in October 1999, the recipient received a
retroactive SSI benefit payment totaling $4,774 for the period February through
October 1999. This recipient’s conserved fund balance at the end of the 6-month
exclusion period (April 2000) was $3,759. As a result, this individual was not entitled to
SSI benefits in May 2000 and continued to be ineligible for benefits until his resources
dropped below $2,000. This individual incorrectly received $1,085 in SSI payments for
the months of May and June 2000. HBS was unaware of its responsibility to notify the
FO when a recipient’s countable resources exceeded $2,000 at the end of a month.
HBS staff believed that reporting the conserved fund balance on the RPR was their only
responsibility for informing SSA of conserved fund balances in excess of $2,000. In this
regard, HBS staff showed us “A Guide For Representative Payees” (SSA Publication
Number 05-10076). HBS staff pointed out that while this guide states that the Rep
Payee should be aware that savings and other resources are limited to $2,000 under
the SSI program, the guide does not specify additional reporting responsibilities beyond
the RPR.

In another case, a recipient had $7,193 in conserved funds at the end August 1999, the
beginning of our audit period. As a result, this individual exceeded the $2,000 resource
limit and was not eligible for a SSI payment in September 1999. The individual
exceeded the resource limit in all 12 months of our audit period and was overpaid
$6,461 in SSI payments for September 1999 through August 2000. HBS staff showed
us that they had reported to SSA the recipient’s conserved fund balance of $5,522 on a
RPR in 1999 and a conserved fund balance of $8,464 on a RPR in 2000. We found
that the conserved fund balance of $8,464 was recorded on the Rep Payee line of this
recipient’s Supplemental Security Record (SSR). However, when we asked FO staff
about this, they stated that RPRs are sent to the Wilkes Barre Data Operation Center
not to the FO. FO staff informed us that they do not receive alerts when RPRs are
submitted showing beneficiary funds exceeding the SSI resource limits. Further, FO
staff informed us they had not seen the conserved fund amount on the SSR and had
not taken action to collect the overpayment from HBS.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   6
PAYEE FEE CHARGED IN ERROR

In 1 of the 63 cases reviewed, HBS charged a beneficiary a payee fee for 3 months
during which it was not authorized to do so under SSA’s guidelines. In this case, the
individual was imprisoned and SSA stopped payments to the beneficiary. For 3 months
after SSA stopped payments, HBS charged this individual fees of $28 per month
($84 total). Since HBS did not receive payments for the beneficiary during these
3 months, the Rep Payee should not have collected a fee.5 HBS agreed that fees
were charged in error and that the $84 was due back to the beneficiary.

CONSERVED FUNDS HELD IN A NON-INTEREST BEARING ACCOUNT

The bank account that HBS used for Rep Payee accounting is a non-interest bearing
account. Rather than pay interest, the bank (based on HBS’ ending monthly balance)
calculates an Earnings Credit Allowance (ECA). The ECA is used to reduce any fees
the bank would have charged HBS for maintenance of this account. However, if the
ECA allowance exceeds the fees charged by the bank the net ECA is not deposited in
HBS’ account as interest. For example, in one month the ECA was $315 and the
charges for services were only $76, however, because this is a non-interest bearing
account, the difference ($239) was not deposited in HBS’ Rep Payee bank account as
interest. HBS’ keeping conserved funds in such an account contradicts SSA’s
recommendation that conserved funds be maintained in an interest bearing account.
However, HBS staff informed us that in 1995 when the Rep Payee account was
established—and again in 1997—it assessed options of available accounts and
determined that its current checking account fee/interest structure was the best account
available. Further, HBS staff stated that if SSA requests that they survey banks
regarding checking accounts available today, they will re-assess their account options.

CONSERVED FUNDS WERE PROPERLY TRANSFERRED
During our audit period, HBS ceased being a Rep Payee for 12 of the 63 individuals
they served as Rep Payee. We determined that HBS properly transferred the
remaining conserved funds when it stopped acting as Rep Payee for these
12 individuals. Specifically, we found that:

•   In 7 cases, HBS returned conserved funds totaling $8,204 to SSA.

•	 In 3 cases, the individuals had no conserved funds when HBS stopped acting as the
   individuals’ Rep Payee.




5
 SSA’s Program Operations Manual System, section GN 00506.210, provides, in part, that a fee may not
be collected if no payment is received in the month.

Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   7
•	 In 1 case, with SSA’s approval, HBS sent conserved funds totaling $158 to the
   individual’s new Rep Payee.

•	 In 1 case, HBS sent conserved funds totaling $223 to a relative of a deceased
   OASDI beneficiary.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   8
                                                           Conclusions and
                                                           Recommendations
Generally, HBS met its responsibilities as Rep Payee for individuals receiving OASDI
and SSI payments. However, HBS was not fully aware of its reporting responsibilities
and thus received SSI payments for individuals who were ineligible for payments
because they exceeded SSI resource limits.

We recommend that SSA:

1. 	 Ensure that HBS returns funds paid for recipients who were ineligible due to excess
     resources.

2. 	 Reemphasize procedures with HBS for notifying SSA when events occur that affect
     the eligibility or the amount of monthly benefits for individuals in its care.

AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendations and stated that
corrective actions had already been taken. Specifically, SSA staff began recovery of
the overpayments identified, and held a meeting with HBS representatives where they
reviewed HBS’ reporting responsibilities as a Rep Payee.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   9
                                                                         Other Matters

To determine whether HBS properly reported to SSA how benefits were used, we
requested from SSA the most recently completed RPRs for 30 of HBS’ beneficiaries.
While HBS staff stated that they submitted RPRs to SSA for all their beneficiaries, SSA
was unable to provide 17 of the 30 RPRs requested. Because SSA did not provide all
the RPRs requested, we could not independently confirm that HBS met its reporting
responsibilities. For the 17 RPRs not provided by SSA, we do not know whether the
RPRs were actually submitted to SSA by HBS, or if HBS provided them to SSA and
SSA could not locate them.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   10
                                                  Appendices





Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)
                                                                                       Appendix A
Agency Comments




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)
                                   SOCIAL SECURITY

MEMORANDUM                                                                       Refer to:    S2D1G3/CL-22


Date:            April 13, 2001

To:              Inspector General


From:	           Regional Commissioner
                 Boston


Subject:	        Financial-Related Audit of Hale Barnard Services - A Fee-for-Service
                 Representative Payee for the Social Security Administration
                 (A-01-00-10060)


                 Thank you for the opportunity to review the draft report of your audit
                 of Hale Barnard Services. We concur with your recommendations and
                 have taken action on both items.

                 Ensure that HBS returns funds paid for recipients who were ineligible
                 due to excess resources.

                 During the audit seven individuals were found to be overpaid due to
                 excess resources. Representatives from our Boston District Office met
                 with representatives from Hale Barnard Services. They obtained full
                 refunds from two individuals. They obtained partial refunds from four
                 of the remaining beneficiaries. This reduced their resources to within
                 the allowable limit. The remainders of the overpayments are being
                 withheld from the beneficiaries’ ongoing payments. In the final case,
                 the person's resources had already been spent down to below the
                 allowable limit by the time of the audit. The overpayment is being
                 collected from his monthly check.

                 Reemphasize procedures with HBS for notifying SSA when events
                 occur that affect the eligibility or the amount of monthly benefits for
                 individuals in its care.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   A-1
                 The Boston District Manager and Assistant District Manager met with
                 representatives from Hale Barnard Services. During that meeting they
                 reviewed Hale Barnard Services’ reporting responsibilities as a
                 representative payee. They emphasized the need to notify the Social
                 Security Administration whenever a Supplemental Security Income
                 beneficiary’s resources exceeded the allowable amount. Hale Barnard
                 Services representatives now understand the reporting responsibilities
                 and the need to return any checks issued to an individual whose
                 resources exceed the allowable limit. In addition, Hale Barnard
                 Services is planning to implement an internal system alert whenever a
                 person's resources approach the maximum allowable amount.

                 If you have any questions, please contact Barbara Barbati of my
                 Program Policy and Systems Team at 617-565-2882.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)   A-2
                                                                                       Appendix B

OIG Contacts and Staff Acknowledgments
OIG Contact

     Rona Rustigian, Acting Director, Disability Program Audit Division,
     (617) 565-1819


Acknowledgments

In addition to the person named above:

     David Mazzola, Auditor-in-Charge

     Katie Hallock, Auditor

     Joseph LoVecchio, Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-00-10060.




Financial-Related Audit of Hale Barnard Services – A Fee-for-Service Rep Payee for SSA (A-01-00-10060)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders 
                                                       25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
  House of Representatives 1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                   1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                               1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        97
                   Overview of the Office of the Inspector General

                                     Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether SSA’s
financial statements fairly present the Agency’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness
of SSA’s programs. OA also conducts short-term management and program
evaluations focused on issues of concern to SSA, Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.

                                Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
